Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




  NEW YORK STATE IMPROPERLY
      CLAIMED MEDICAID
REIMBURSEMENT FOR SOME HOME
   HEALTH SERVICES CLAIMS
 SUBMITTED BY CERTIFIED HOME
      HEALTH AGENCIES
   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                 Daniel R. Levinson
                                                  Inspector General

                                                   September 2013
                                                    A-02-11-01008
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers Medicaid. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although each State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. Pursuant to section 1905(b) of the Act, the Federal
Government pays its share of a State’s medical assistance expenditures under Medicaid based on
the Federal medical assistance percentage, which varies depending on a State’s relative per
capita income.

In New York State, the Department of Health (State agency) administers Medicaid. The home
health services program is operated by the State agency’s Office of Long Term Care. Under the
program, Certified Home Health Agencies (CHHAs) provide preventive, therapeutic, and/or
rehabilitative services to Medicaid beneficiaries.

Pursuant to Federal regulations, home health services are provided to a beneficiary at the
beneficiary’s place of residence and on his or her physician’s orders as part of a written plan of
care that the physician reviews every 60 days. Many providers use Form CMS-485, Home
Health Certification and Plan of Care, as the required plan of care to document physicians’
orders for home health services. Pursuant to State requirements, home health aides must
complete a basic training program in home health aide services or an equivalent exam approved
by the State agency.

This review excluded service claims submitted by CHHAs in New York City that we previously
audited (A-02-10-01022).

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for selected State plan home health services claims submitted by CHHAs in the
State in accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency claimed Federal Medicaid reimbursement for some home health services
claims submitted by CHHAs in the State that were not in accordance with Federal and State
requirements. Of the 100 claims in our random sample, 85 claims complied with Federal and
State requirements, but 15 claims did not. Specifically:

   •   For 10 claims, the physician did not review the plan of care.



                                                 i
   •   For two claims, there was no plan of care.

   •   For one claim, the CHHA could not provide documentation to support the service.

   •   For one claim, the CHHA did not provide the service in the beneficiary’s place of
       residence.

   •   For one claim, the home health aide did not complete a basic training program.

These deficiencies occurred because some CHHAs in the State did not comply with Federal and
State requirements.

On the basis of our sample results, we estimated that the State agency improperly claimed at
least $31,482,913 in Federal Medicaid reimbursement during our January 1, 2007, through
December 31, 2009, audit period.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $31,482,913 to the Federal Government and

   •   issue guidance to CHHAs in the State on Federal and State requirements for physicians’
       orders and plans of care.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not indicate either concurrence or
nonconcurrence with our two recommendations. Regarding our recommended financial
disallowance, the State agency stated that its Office of the Medicaid Inspector General (OMIG)
found additional documentation to support one claim and provided the documentation under
separate cover. The State agency also asked that CMS waive collection of the recommended
disallowance in lieu of corrective action being taken by OMIG. Regarding our recommendation
that it issue guidance to CHHAs, the State agency stated that CHHAs are on notice to comply
with Federal conditions of participation, particularly as they relate to plans of care. In addition,
plan of care requirements have also been included in guidance issued to providers and in audit
protocols posted on OMIG’s Web site. The State agency stated that it will evaluate whether
additional guidance is needed.

After reviewing the State agency’s comments and additional documentation related to one claim,
we revised our findings and modified our statistical estimates accordingly.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
            Medicaid Program ..................................................................................................... 1
            New York State’s Medicaid Program ....................................................................... 1
            New York State’s Home Health Services Program .................................................. 1
            Federal Requirements for Home Health Services ..................................................... 2
            State Requirements for Home Health Services ......................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
            Objective ................................................................................................................... 2
            Scope ........................................................................................................................ 2
            Methodology ............................................................................................................. 3

FINDINGS AND RECOMMENDATIONS ........................................................................... 4

          PLAN OF CARE NOT REVIEWED ............................................................................. 4

          NO PLAN OF CARE...................................................................................................... 5

          SERVICE NOT DOCUMENTED.................................................................................. 5

          SERVICE NOT FURNISHED IN PLACE OF RESIDENCE ....................................... 5

          AIDE DID NOT RECEIVE BASIC TRAINING ........................................................... 5

          ESTIMATE OF THE UNALLOWABLE AMOUNT.................................................... 6

          RECOMMENDATIONS ................................................................................................ 6

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................. 6

APPENDIXES

          A: FORM CMS-485, HOME HEALTH CERTIFICATION AND PLAN OF CARE

          B: SAMPLE DESIGN AND METHODOLOGY

          C: SAMPLE RESULTS AND ESTIMATES

          D: STATE AGENCY COMMENTS

                                                                     iii
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers Medicaid. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although each State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. Pursuant to section 1905(b) of the Act, the Federal
Government pays its share of a State’s medical assistance expenditures under Medicaid based on
the Federal medical assistance percentage (FMAP), which varies depending on a State’s relative
per capita income.

New York State’s Medicaid Program

In New York State (the State), the Department of Health (State agency) administers Medicaid.
The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process and pay Medicaid claims. From
January 1, 2007, through September 30, 2008, the FMAP in the State was 50 percent. From
October 1, 2008, through December 31, 2009, the FMAP in the State varied from 58.78 percent
to 61.59 percent.

New York State’s Home Health Services Program

Within the State agency, the Office of Long Term Care operates the home health services
program. Under the program, Certified Home Health Agencies (CHHAs) provide preventive,
therapeutic, and/or rehabilitative services to Medicaid beneficiaries. 1 CHHAs may contract with
Licensed Home Care Services Agencies (LHCSAs) to provide home health services. 2 Most
CHHAs provide nursing care directly to beneficiaries and contract with one or more LHCSAs to
provide other home health services, such as physical therapy and occupational therapy.

Reimbursement under Medicaid is available for home health services provided by CHHAs
certified by the State agency. According to State regulations at Title 10 § 763.3(a) of the New
York Compilation of Codes, Rules, & Regulations (NYCRR), a CHHA must be able to provide,
directly or through contractual arrangement, a minimum of four services: nursing, home health
aide, medical supplies/equipment/appliances, and at least one optional service (e.g., physical
therapy or occupational therapy).

1
  Medicaid beneficiaries who receive home health service may be acutely or chronically ill with conditions requiring
skilled nursing services or conditions requiring only maintenance and supervision. The level of need may range
from total dependence to virtual independence.
2
    LHCSAs are not-for-profit or proprietary organizations and are generally not qualified to participate as CHHAs.

                                                           1
Federal Requirements for Home Health Services

Section 1905(a)(7) of the Act authorizes home health services. Pursuant to 42 CFR § 440.70(a),
“home health services” are services provided to a beneficiary at the beneficiary’s place of
residence and “[o]n his or her physician’s orders as part of a written care plan that the physician
reviews every 60 days ….” Many providers use Form CMS-485, Home Health Certification and
Plan of Care, as the required plan of care to document physicians’ orders for home health
services. 3 Line 3 of Form CMS-485 is entitled “Certification Period” and includes spaces for
providers to enter “From” and “To” dates for valid home health services. The certification
period represents the 60-day period during which the plan of care is valid. Physician review is
required at the end of each certification period. (See Appendix A for the CMS form.)

Principles and standards for determining allowable costs incurred by State and local governments
under Federal awards are established by 2 CFR pt. 225 (Office of Management and Budget
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments). Pursuant to
2 CFR § App. A, C.1.c, to be allowable, costs must be authorized or not prohibited by State or
local laws and regulations.

State Requirements for Home Health Services

New York’s approved State Medicaid plan—SPA 07-13—provides that home health care
services are medically necessary services (physician order required) that a CHHA provides to
individuals in the home and community. State regulations for home health services covered
under the State plan are in 18 NYCRR § 505.23. 4 Pursuant to 10 NYCRR § 700.2(b)(9), home
health aides must complete a basic training program in home health aide services or an
equivalent exam approved by the State agency.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for selected State plan home health services claims submitted by CHHAs in the
State in accordance with Federal and State requirements.

Scope

Our audit period covered January 1, 2007, through December 31, 2009. Our review covered
5,720,894 claim lines, totaling $684,816,530 ($342,425,306 Federal share), submitted by
CHHAs in the State. (In this report, we refer to these lines as “claims.”) Our audit population

3
 Form CMS-485 is not a required form. CHHAs may submit any document that: (1) has a physician’s signature
and date, (2) has all of the Form’s data elements, and (3) is in accordance with the current rules governing the home
health plan of care.
4
 All citations to 18 NYCRR § 505.23 are to the 2009 edition of the NYCRR, which is applicable to our entire audit
period. The section was amended in November 2010.

                                                          2
did not include State plan home health services submitted by CHHAs in New York City, which
we audited separately. 5

We limited our review to claims for the following State plan services: home health aide, nursing,
occupational therapy, physical therapy, audiology, speech therapy, and speech pathology. 6

During our audit, we did not review the overall internal control structure of the State agency or
the Medicaid program. Rather, we limited our internal control review to those controls related to
the objective of our audit.

We performed fieldwork at the State agency’s offices in Albany, New York; at the MMIS fiscal
agent in Rensselaer, New York; and at 57 CHHAs and 15 LHCSAs throughout the State.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal and State laws, regulations, and guidelines;

       •   held discussions with State agency officials and county officials throughout the State to
           gain an understanding of the home health services program;

       •   identified a sampling frame of 5,720,894 selected State plan home health services claims,
           totaling $684,816,530 ($342,425,306 Federal share), submitted by CHHAs in the State; 7

       •   selected a simple random sample of 100 claims 8 from the sampling frame of 5,720,894
           claims; and for each of these 100 claims we:

                o reviewed the CHHA’s and contracted LHCSA’s (if applicable) documentation
                  supporting the claim and

                o reviewed the personnel file of the corresponding home health aide or medical
                  professional for training documentation and certifications; and



5
 New York Improperly Claimed Medicaid Reimbursement for Some Home Health Services Claims Submitted by
Certified Home Health Agencies in New York City (A-02-10-01022, issued November 29, 2012).
6
    Our audit population did not include home health services covered under a waiver to the State plan.
7
 We used CHHAs’ correspondence addresses and county codes on the MMIS to identify those located in the State
but outside of the five counties that make up New York City. In addition, the sampling frame did not include claims
submitted by 16 CHHAs audited by the New York State Office of Medicaid Inspector General (OMIG) during our
audit period.
8
 The 100 sampled claims comprised 48 home health aide services, 29 nursing services, 13 physical therapy
services, 6 occupational therapy services, and 4 speech therapy services.

                                                            3
   •   estimated the unallowable Federal Medicaid reimbursement paid in the sampling frame
       of 5,720,894 claims.

Our sample design and methodology are in Appendix B.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency claimed Federal Medicaid reimbursement for some home health services
claims submitted by CHHAs in the State that were not in accordance with Federal and State
requirements. Of the 100 claims in our random sample, 85 claims complied with Federal and
State requirements, but 15 claims did not. The following table lists the type of deficiencies and
the number of claims for each type:

                         Summary of Deficiencies in Sampled Claims
                              Deficiency                         Unallowable Claims
   Plan of care not reviewed                                             10
   No plan of care                                                        2
   Service not documented                                                 1
   Service not furnished in place of residence                            1
   Aide did not receive basic training                                    1

These deficiencies occurred because some CHHAs in the State did not comply with Federal and
State requirements.

On the basis of our sample results, we estimated that the State agency improperly claimed at
least $31,482,913 in Federal Medicaid reimbursement during our January 1, 2007, through
December 31, 2009, audit period.

PLAN OF CARE NOT REVIEWED

Pursuant to 42 CFR § 440.70(a)(2), home health services mean services provided to a beneficiary
on his or her physician’s orders as part of a written plan of care that the physician reviews every
60 days. All of the CHHAs in our sample used Form CMS-485 to document both the
certification period based on a physician’s review every 60 days and a plan of care for each
Medicaid beneficiary.

For 10 of the 100 claims in our sample, a physician did not review the corresponding plan of care
within the 60-day certification period indicated on the corresponding Form CMS-485. For these
claims, the physician reviewed Form CMS-485 an average of 118 days after the certification
period ended. The CHHA officials that we interviewed stated that these unallowable claims

                                                4
occurred because it was difficult to coordinate plan of care reviews with beneficiaries’
physicians within the required 60-day period.

NO PLAN OF CARE

Pursuant to 42 CFR § 440.70(a)(2), home health services mean services provided to a beneficiary
on his or her physician’s orders as part of a written plan of care.

For 2 of the 100 claims in our sample, the CHHA could not provide a plan of care for the
beneficiary that covered the service date. 9

SERVICE NOT DOCUMENTED

Pursuant to 42 CFR § 433.32, services claimed for Federal Medicaid reimbursement must be
documented. Pursuant to 18 NYCRR § 505.23(e)(1), payments for home health services are
prohibited unless the claims for payment are supported by documentation of the time spent
providing services.

For 1 of the 100 claims in our sample, the CHHA could not document that services were
provided for 4 of the 24 hours billed on our service date.

SERVICE NOT FURNISHED IN PLACE OF RESIDENCE

Pursuant to 42 CFR § 440.70(a), home health services are services provided to a beneficiary at
the beneficiary’s place of residence. Pursuant to 42 CFR § 440.70(c), a beneficiary’s place of
residence does not include a hospital, nursing facility, or intermediate care facility.

For 1 of the 100 claims in our sample, the service was provided in a hospital, as part of an
outpatient physical therapy service.

AIDE DID NOT RECEIVE BASIC TRAINING

Pursuant to 18 NYCRR § 505.23(a)(2)(iii), home health aide services must be provided by a
home health aide who meets the State agency’s training requirements. Pursuant to 10 NYCRR
§ 700.2, home health aides must successfully complete a basic training program in home health
aide services or an equivalent exam approved by the State agency.

For 1 of the 100 claims in our sample, services were provided by an individual who had not
completed a basic training program in home health aide services. 10



9
 For these two sampled claims, the CHHAs billed for home health services but were actually providing personal
care services.
10
  We noted that on our service date, the individual had a personal care services certification, which is less stringent
than a home health certification.


                                                           5
ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 home health services claims that we sampled, 15 were not made in accordance with
Federal and State requirements. On the basis of our sample results, we estimated that the State
improperly claimed at least $31,482,913 in Federal Medicaid reimbursement from January 1,
2007, through December 31, 2009, for selected State plan home health services claims that
CHHAs in the State submitted. Our sample results and estimates are in Appendix C.

RECOMMENDATIONS

We recommend that the State agency:

     •   refund $31,482,913 to the Federal Government and

     •   issue guidance to CHHAs in the State on Federal and State requirements for physicians’
         orders and plans of care.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not indicate either concurrence or
nonconcurrence with our two recommendations. 11 Regarding our recommended financial
disallowance, the State agency stated that its OMIG found additional documentation to support
one claim (sampled claim number 6) and provided the documentation under separate cover. The
State agency also asked that CMS waive collection of the recommended disallowance in lieu of
corrective action being taken by OMIG. 12 Regarding our recommendation that it issue guidance
to CHHAs, the State agency stated that CHHAs are on notice to comply with Federal conditions
of participation, particularly as they relate to plans of care. In addition, plan of care requirements
have also been included in guidance issued to providers and in audit protocols posted on OMIG’s
Web site. The State agency stated that it will evaluate whether additional guidance is needed.

After reviewing the State agency’s comments and additional documentation related to sampled
claim number 6, we revised our findings and modified our statistical estimates accordingly. The
State agency’s comments appear in their entirety as Appendix D.




11
  In its comments, the State agency also provided a detailed description of recent reforms to its Medicaid program,
including a new methodology to reimburse CHHAs for Medicaid services. These reforms were implemented after
our audit period.
12
  The State agency did not specify what corrective action it has taken or plans to take at providers. Rather, the State
agency stated that OMIG visited 8 providers associated with 11 total claims that we determined to be unallowable.

                                                          6
APPENDIXES
               APPENDIX A: FORM CMS-485, HOME HEALTH CERTIFICATION
                                 AND PLAN OF CARE
Department or Health and Human Servieas                                                                                                                            Form Approved
Centers ror Mecieare & Medicaid Services                                                                                                                           OMB No. 0938-0357
                                           HOME HEALTH CERTIFICATION AND PLAN OF CARE
1. Patient's HI C laim No.            12. start Of Care Date     13. Certif ication Period                                          14. Medical Record No.               15. Pr011ider No.
                                                                     From:                       To:
6. Patient's Name and Address                                                           7. Provide~s Name, Address and Telephone Number




8. Date of Birth                                           19. Sex   OM OF              10. Medications: Dose/Frequ ency/Route (N)ew (C)hanged
11. IC0-9-CM Principal Di agnosis                                     Date


12. IC0-9-CM     Surgical Procedure                                   Date


13. IC0-9-CM Other Pertinent Diagnoses                                Date




14. DME and Supplies                                                                     15. Safety Measures:


16. Nutritional Req.                                                                     17. Allergies:
18.A. Functional Ltmttattons
                                                                                                        ...
                                                                                         18.8 . Acltvtbes Permttted
  1   0  AmputtlbM                   5     0 p.,...,.,,      9   0   LOQ~IyBbnd              1   0     Com~ot• Boooo"           6    0   Pertlol W)IQt'f &ani'()     A    0   Vvt!MICh<Jr
  2   O Bowi~add"r (lncontin(inct)   6     0 Ende_ran¢$      A   0 ~::~~~on                      0     BOJdrest SRP             7    0   fnCI&pe~nt At Home          8    ow"""'
  3   0 Conlractu((':                7     0 PlnbiJtehon     8   0   Otho< (Sp•alyl              0     Ul) A$ TotGmtod          8    ocrutcnos                       c    0   N6 Restnction s
      0 Heanrl()                     8     0 Spooth                                              0     TransterSediCh-atr       9    o c-                            D    0   OII>Or!Siooeoty)
                                                                                             5   0     Ex&I'0$8$ Prescribt:td

19. Mental status:                    1                      3   0   Fo0'9011\j              5   0     Oisonenle<l                   0   AQol8t&d
                                     2	                              O.P<*SS•d               6   0     uth~u·o•c                8    0   Otnor
                                                                     Guarded                 3         Fair                     4        Good                        5         Excellent




22. Goals/Rehabi l~ alion Potential/Discharge Plans




23. Nurse's Signature and Date of Velbal SOC Where Applicable: 	                                                                     25. Date HHA Received Signed POT


24. Physici an's Name and Address                                                       26. I certify/recertify that this pati ent is confined to his/her home and needs
                                                                                            intermittent skilled nursing care, physical therapy and/or speech therapy or
                                                                                            continues to need occupational therapy. The patient i s under my care. a.nd I have
                                                                                            authorized the services on this plan of care and will periodically review the plan.


27. Attending Physician's Signature and Date Signed                                     28. Anyone who misrepresents. falsifies, or conceals essential information
                                                                                            required for payment of Federal f unds may be subject to fin e, imprisonment.
                                                                                            or civil penalty under applicable Federal laws.

Form CMS.485 (C-3) (02-94) (Formerly HCFA -465) (Print Aligned)
                   APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was State plan home health claim lines (claims) submitted by Certified Home
Health Agencies (CHHAs) in New York State during our January 1, 2007, through
December 31, 2009, audit period that New York State claimed for Federal Medicaid
reimbursement. The population did not include State plan home health services submitted by
CHHAs in New York City, which we audited separately.

SAMPLING FRAME

The sampling frame was a computer file containing 5,720,894 detailed paid claims for selected
State plan home health services submitted by CHHAs in the State during our audit period. 1 The
total Medicaid reimbursement for the 5,720,894 claims was $684,816,530 ($342,425,306 Federal
share). The Medicaid claims were extracted from the claim files maintained at the Medicaid
Management Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual Federal Medicaid claim.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of Federal Medicaid claims.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the 5,720,894 detailed claims. After generating 100 random
numbers, we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at a 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.

1
  We limited our review to claims for the following State plan services: home health aide, nursing, occupational
therapy, physical therapy, audiology, speech therapy, and speech pathology.
             APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                              Sample Details and Results
                                                                          Value of
                                                                         Unallowable
                                           Value of
            Value of Frame                                                 Claims
Claims in                      Sample       Sample         Unallowable
            (Federal Share)                                               (Federal
 Frame                          Size    (Federal Share)      Claims
                                                                           Share)
5,720,894   $342,425,306         100         $6,106            15           $950


                           Estimated Unallowable Costs
              (Limits Calculated for a 90-Percent Confidence Interval)

                     Point estimate                   $54,346,205

                     Lower limit                      $31,482,913

                     Upper limit                      $77,209,496
                APPENDIX D: STATE AGENCY COMMENTS 





= ===========:!r                       ~~:~"~"~~~K lt::========= 

 Nirav R. Shah, M.D., M.P.H.
 Commissioner
                                       HEALTH                                                    Sue Kel ly
                                                                             Executive D eputy Commissioner




                                                          June 24, 2013




Mr. James P. Edert
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of the Inspector General
Jacob Javits Federal Building
26 Federal Plaza, Room 3900
New York, NY 10278
                                                         Ref. No. A-02-11 -01008
Dear Mr. Edert:

        Enclosed are the Department of Health's comments on the U.S. Department of Health
and Human Services, Office oflnspector General draft audit report number A-02-11-0 1008
entitled, "New York State Improperly Claimed Medicaid Reimbursement For Some Home
Health Services Claims Submitted By Certified Home Health Agencies."

        Thank you for the opportunity to comment.

                                                         Sincerely,                     (


                                         --·z.~~
                                              Co~         Deputy
                                                            for Administration
                                                                                 /
Enclosure

cc:    Nirav R. Shah, M.D., M.P.H.
       Jason A. Helgerson
       James C. Cox
       Michael J. Nazarko
       Robert W. LoCicero, Esq.
       Diane Christensen
       Dennis Wendell
       Stephen F. LaCasse
       Ronald Farrell
       OHIPBML
                                       HEALTH. NY.GOV
                                       fac.ebook.com/ NYSOOH
                                      tw fttPr r"nm/Hcalt hNYGo\1
                     New York State Department of Health 

                               Comments on the 

                   Department of Health and Human Services 

                          Office of Inspector General 

                   Draft Audit Report A-02-11-01008 entitled 

                 New York State Improperly Claimed Medicaid 

                Reimbursement For Some Home Health Services 

              Claims Submitted By Certified Home Health Agencies 


 The following are the New York State Department of Health's (Department) comments in
 response to the Department of Health and Human Services, Office of Inspector General (OIG)
 Draft Audit Report A-02-11-01008 entitled, ''New York State Improperly Claimed Medicaid
 Reimbursement For Some Home Health Services Claims Submitted By Certified Home Health
 Agencies."

 Recommendation #1:

 Refund $32,591,967 to the Federal Government.

 Response #1:

 The OlG's audi t sample consisted of 100 randomly-selected claims from among the 5,720,894
 claims totaling $342,425,306 in federal share (FS) reimbursements over the January 1, 2007
 through December 31, 2009 audit period. OIG disallowed 16 of the 100 claims in the audit
 sample, and extrapolated the $969. in FS reimbursements relative to these 16 c laims across the
 more than 5.7 million claims universe to calculate the $32,59 1,967 recommended refund amount.

The OMIG, concentrating on the finding, "Plan of Care Not Reviewed," visited 8 pro viders
representing II claims disallowed by the OIG audit. The OMIG found documentation supporting
one claim, submitted by Clinton DOH LTHHCP CO, (provider                       . A plan of care
(POC) was found for OIG Case #6, date of service 1/27/08, which was properly signed and dated
within the certification period. It appears this POC was misfiled and a second POC was sent to
the physician for review and that one was signed late, and later reviewed by OIG. The
documentation obtained from the provider is avai lable for review.

CMS is respectfully requested to waive collection of OIG's recommended disallowance which is
based on an extrapolation of $969. in disallowed claims, in lieu of the OMIG co ntinuing to take
corrective action on a provider-by-provider basis within the statute of limitations. If CMS will
not waive collection of the entire oro amount, it is requested that the findings attributed to the
claim of Clinton DOH LTI-II-ICP CO be eliminated for the reason stated above.

Governor Cuomo established the Medicaid Redesign Team (MRT) by Executive Order upon
taking office in January 20 11 , bringing together stakeholders and experts from throughout the
state to work cooperatively to reform the health care system and reduce costs.


Office oflnspecto r Gene ral Note: We redac ted a portio n of the State agency ' s comments that included personally
identifiabl e infonnation.
In May of2012, the Department submitted an Amended Partnership Plan Medicaid Section 111 5
Demonstration waiver to the Centers for Medicare and Medicaid Services (CMS) for approval to
require all dual-eligible individuals (persons in receipt of both Medicare and Medicaid) who are
aged 21 or older and are in need of community-based long term care services for more than 120
days to be enrolled into Managed Long Term Care Plans (MLTCPs) or Care Coordination Models
(CCMs). This approval was granted in August 2012.

As a component of a fully integrated care management system, Medicaid Redesign Team
Proposal #90 and 20 II budget legislation required the mandatory transition and enrollment of
certain community based long term care services recipients into Managed Long Term Care Plans
(MLTCPs) or Care Coordination Models (CCMs). To meet the goals of MRT #90, MLTCP
applications were expeditiously reviewed and approved as additional capacity was needed to
accommodate the influx of MLTCP enrollments migrating from fee-for-service long term care
service programs such as the Personal Care Program, the Long Term Home Health Care Program
(LTHHCP) and individuals moving from long term Certified Home Health Agency (CHHA) care.
New York State recognizes three models ofMLTCPs: the Program of All-Inclusive Care for the
Elderly (PACE); Medicaid Advantage Plus Plans; and, partially capitated Managed Long Term
Care Plans (PCMLTCP). Partially capitated Managed Long Term Care Plans provide long-term
(personal care, home health) and ancillary (transportation, dental, rehabilitative therapies) health
care services with an integrated care management component; PACE (Program of All-Inclusive
Care for the Elderly) provides comprehensive primary, acute and long-term care in a day center
setting and in the home; Medicaid Advantage Plus Plans, with enrollment in a companion
Medicare Advantage Plan, include comprehensive acute, primary and long-term care services.

The mandatory enrollment initiative impacts Dual Eligible recipients (individuals who are eligible
for both Medicaid and Medicare), aged 2 I and over, who are in need of community based long
term care services for over 120 days. Community based long term care services include home
health care, personal care, adult day health care and private duty nursing; these populations have
successfully initiated transition into MLTC.

As of June 20 I3, approximately 50,000 consumers have moved from the fee-for-service
environment into a MLTC plan in the last year, with the State's MLTC enrollees numbering more
than 100,000 consumers, controlling the long term care population's health care costs while
providing comprehensive care coordination and quality health services. Of these approximately
2.500 CHHA recipients have transitioned in 2013 as we initiate the home health transition process
for qualifying consumers.

Additionally, MRT # 5 established a new Episodic Payment System (EPS) reimbursement
methodology to reimburse CHHA home health providers for services provided to Medicaid
patients. The EPS is based on a price for 60-day episodes of care which will be adjusted by
patient acuity and regional wage differences. The EPS is designed to address the issue of rapid
growth in Medicaid costs per patient by better aligning payments with needed services and is part
of a broad effort to promote the development of care management arrangements for Medicaid
recipients. It too has resulted in significant Medicaid savings and directed additional consumers
into MLTC plans.




                                                2
New York State continues to implement our multi-year action plan that is improving health
outcomes for more than five million New Yorkers as well as bending the state's Medicaid cost
curve by saving $300 million in Medicaid expenditures since 20 I 0. Significant federal savings
have already been realized through New York's MRT process and substantial savings will
continue to accrue as part of the MLTC transition plan. The use of MLTC has allowed the State
to provide efficient and effective community based long term care services to its consumers of
long term health care. The transition to MLTC has created an atmosphere of rebalancing, aligning
with the Olmstead decision, by continuing to support repatriation of consumers from both nursing
facilities and adult care facilities to the most integrated setting in the community. New York
continues to move forward on the path of "care management for all" to bring community based
long term care services to its citizens that is efficient, cost effective, comprehensive and
coordinated.

Recommendation #2:

Issue guidance to CHI-lAs in the State on Federal and State requirements for physicians' orders
and plans of care.

Response #2:

Certified home health agencies (CHHAs) in New York State are on notice to comply with the
federal conditions of participation generally, and in relation to plans of care in particular.
Department regulations specificall y state al l CHHAs must comply with the federal conditions of
participation (18 NYCRR Part 505.23), and regulations have been issued regarding plans of care
in 10 NYCRR Part 763. The plan of care requirements have additionally been. the subject of
guidance in NYS Medicaid Policy Manuals issued for home health services. These have been
iss ued in successive years, including in 2007, which coincides with part of the OIG's audit period.
OMIG staff has made yearly presentations at CHHA association meetings where requirements for
the plans of care have been a topic. In addition, OMIG has posted audit protocols on its website
highlighting the requirements of the providers concerning the plans of care wi th Federal and State
regulatory references. Nonetheless, 'the Department will evaluate whether additional guidance
reiterating the existing standards is needed.




                                                 3
